             PUBLIC

            RELEASE



              BUREAU OF THE CENSUS

   Headquarters Information Processing
  Systems for the 2000 Decennial Census
     Require Technical and Management
                   Plans and Procedures

Inspection Report No. OSE-10034-8-0001 / November 1997




                            Office of Systems Evaluation
                                             TABLE OF CONTENTS




EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


OBSERVATIONS AND CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3



          I.	       Software Is Not Developed in Accordance with Any Well-Defined Process . . . . 3


          II.	      Estimates of Software Development Schedules and Resources Are Not 

                    Realistic for the Dress Rehearsal and the 2000 Census . . . . . . . . . . . . . . . . . . . . 6


          III.	     Requirements for Headquarters Processing Are Immature, Volatile, and 

                    Likely to Be Late . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


Attachment A

Office of Inspector General                                                  Final Inspection Report


EXECUTIVE SUMMARY
The primary purpose of the decennial census is to provide data that reflect an accurate
enumeration of all residents of the United States. The accuracy of census data is critical because
it is the basis for apportioning seats in the Congress and for the distribution of billions of dollars
by the federal government.

The Processing Systems organization within the Decennial Systems and Contracts Management
Office is responsible for the headquarters information processing systems. Headquarters
processing is a key ingredient of the overall census process. It is involved with decennial census
operations starting with the collection of census information, proceeding through the analysis and
tabulation of census data, and ultimately preparing census results for dissemination. In our pre-
inspection survey, we observed that the requirements for systems to support headquarters
processing were not clearly defined, and we were unable to confirm that mechanisms required to
manage the software development were being implemented and that adequate progress was being
made. We therefore conducted this inspection to (1) evaluate the appropriateness of the system
requirements, (2) assess the system implementation strategy and plan, (3) evaluate the readiness
and capabilities of the development organization and the planned use of support contractors, and
(4) identify system development risks.

During our inspection, we made our findings available to Bureau of the Census managers who
prepared an outline of an action plan to address our concerns. We assessed their plan and found
their proposed approach in agreement with the recommendations provided in this report. We
appreciate the bureau’s cooperation and responsiveness during the course of this inspection.

Our major observations and conclusions are as follows:

C      Software is not developed in accordance with any well-defined process. Managers
       and software developers within the Processing Systems organization are experienced and
       dedicated individuals who have a great deal of background in developing software for
       census applications. Despite their significant capabilities, we are concerned that they do
       not follow a well-defined software development process based on software engineering
       principles. The software development approach employed is not based on standards for
       (1) documenting and reviewing software specifications and design, (2) ensuring that
       rigorous, independent testing is carried out, and (3) ensuring the uniform and effective use
       of development and evaluation methods and tools. Because of the widespread
       dependence on and, hence, the criticality of correct decennial census results, we believe
       that the bureau needs to adopt a software development process based on at least this
       minimal set of elements (see page 3).



                                                   i
Office of Inspector General 	                                            Final Inspection Report

C	     Estimates of software development schedules and resources are not realistic for the
       Dress Rehearsal and the 2000 census. The bureau has developed a master activity
       schedule (MAS) that identifies activities, their interrelationships, and expected durations
       necessary to accomplish the 1998 Dress Rehearsal and the 2000 decennial census. We
       learned, however, that durations specified for headquarters software development
       activities did not indicate the expected effort required, but rather represented “windows of
       opportunity” or the time available for development. Without estimates of activity
       durations, management cannot determine whether software development schedules are
       achievable or whether requests for staffing levels to support software development are
       realistic. We also noted that the majority of the software development activities in the
       MAS are characterized as a “develop/test” effort, with no further breakdown into sub-
       activities actually required to develop and test the software. As a result, management
       cannot gain appropriate insight into actual progress toward completion of the software
       development effort (see page 6).

CC	    Requirements for headquarters processing are immature, volatile, and likely to be
       late. As currently planned, the 2000 decennial census and the 1998 Dress Rehearsal will
       rely on statistical processes that have not been used in previous censuses. Therefore,
       decisions concerning the details of these statistical processes must be documented in
       requirements specifications for software that must still be developed. However, statistical
       research is still being conducted and important decisions concerning the details of some of
       these processes are not being made in a timely manner. Consequently, important
       requirements specifications cannot be prepared within the required time frame. As a
       result, some developers have stated that they will begin development of software without
       having associated requirements specifications available, or with specifications that are
       likely to change. The development of software without requirements specifications, or
       with frequently changing specifications, increases the risk that costly and time consuming
       modifications will subsequently be needed to accommodate changes in requirements. We
       believe that the bureau should focus on definition and refinement of requirements, rather
       than risk having to modify prematurely designed and developed software (see
       page 8).

Our recommendations begin on page 9. The bureau’s memorandum in response to our report is
included as Attachment A.




                                                ii
Office of Inspector General                                                 Final Inspection Report


INTRODUCTION

The primary purpose of the decennial census is to provide data that reflect an accurate
enumeration of all residents of the United States. The accuracy of census data is critical because
it is the basis for apportioning seats in the Congress and for the distribution of billions of dollars
by the federal government. Census data are also used by federal, state, and local officials to
determine requirements for the construction of highways, hospitals, schools, and bridges.
Furthermore, the private sector relies on these data for making decisions that affect the location of
office and manufacturing facilities, as well as the introduction of new products and services.

The Bureau of the Census is currently preparing for the 2000 decennial census. The bureau has
developed a plan that identifies its approach for conducting the 2000 census and ensuring an
accurate determination of the nation’s population and housing, but at a lower real cost per
housing unit than the 1990 census. To accomplish this, the bureau has identified the following
key strategic goals for the 2000 census:

C      To make every effort to count every resident using simple, easy-to-read forms.

C      To implement an open process that diverse groups and interests can understand
       and support.

C      To eliminate the differentials in the totals for racial and ethnic groups.

To achieve these goals, the bureau has introduced procedures for the 2000 census that were not
used in any previous census. New procedures include the use of user-friendly forms, the
availability of extra forms in convenient places, multiple contacts with each household, digital
capture of forms, and statistical estimation techniques.

In the spring of 1998, the bureau will conduct a Dress Rehearsal of the 2000 census. The Dress
Rehearsal will provide a census-like environment to evaluate the interaction of the components of
the decennial census, including the new procedures. The bureau views the Dress Rehearsal as
critical to a successful 2000 census and thus intends to conduct the Dress Rehearsal as much like
the actual 2000 decennial census as possible.



BACKGROUND

Our pre-inspection survey of the acquisition and development risks associated with the 2000
census focused on four primary components of the census process: data capture, decennial field


                                                  1

Office of Inspector General                                                Final Inspection Report

interface, data access and dissemination, and headquarters processing. The data capture and
decennial field interface components are involved in the collection of census information from
field locations, whereas the data access and dissemination component helps make the results of
the census available to the public and government agencies. The headquarters processing
component interchanges data with and supports these other components. It is involved with
census operations starting with collection of census information, proceeding through the analysis
and tabulation of the collected data, and ultimately preparing census results for dissemination. In
addition, the headquarters processing component begins prior to the start of data collection
because of its responsibility for development of the decennial master address file, which effectively
controls the census process.

As a result of our survey, we recognized the importance of headquarters processing to the overall
census process. We also observed that the requirements for systems to support headquarters
processing were not clearly defined. Moreover, we were unable to confirm that mechanisms
required to manage software development were being implemented and that adequate progress
was being made. Therefore, we were not convinced that the bureau has taken the necessary steps
to ensure that headquarters data processing capabilities will adequately support the decennial
census.

During our inspection, we made our findings available to bureau managers who prepared an
outline of an action plan to address our concerns related to the software development aspects of
headquarters processing. We assessed their plan for dealing with our concerns and found their
proposed approach in agreement with the recommendations provided in this report. We
appreciate the bureau’s cooperation and responsiveness during the course of this inspection.

PURPOSE AND SCOPE
The objectives of this inspection, which focused on census headquarters processing for both the
Dress Rehearsal and 2000 census, were to (1) evaluate the appropriateness of the system
requirements, (2) assess the system implementation strategy and plan, (3) evaluate the readiness
and capabilities of the development organization and the planned use of support contractors, and
(4) identify system development risks.

In conducting our review, we met with management and technical personnel from the Processing
Systems organization within the Decennial Systems and Contracts Management Office (DSCMO),
who are responsible for the headquarters information processing systems. We discussed in detail
the headquarters processing requirements for the decennial census and the software needed to
satisfy the requirements. To a lesser extent, we discussed hardware associated with meeting those
requirements. We also discussed the proposed staffing and organizational structure, including
contractors necessary to support headquarters operations, and reviewed plans and processes, both
management and technical, that were in place or anticipated.

                                                 2

Office of Inspector General                                               Final Inspection Report

Inspections are special reviews that the Office of Inspector General conducts to give agency
managers information about operations, including assessments of current and foreseeable
problems. The objective is to promote effective, efficient, and economical management and to
detect fraud, waste, and abuse. Our work was performed in accordance with the Standards for
Inspections issued by the President’s Council on Integrity and Efficiency.



OBSERVATIONS AND CONCLUSIONS

I.     Software Is Not Developed in Accordance with Any Well-Defined Process

Grady Booch, James Rumbaugh, and Ivar Jacobson, noted software development experts, provide
the following insight on the importance of a well-defined software development process:

       “The presence of a well-defined and well-managed process is the key discriminator
       between productive projects and unsuccessful ones. The reliance upon heroic
       programming is not a sustainable practice. A process 1) provides guidance as to the order
       of a team’s activities, 2) specifies what . . . [documentation] should be developed,
       3) directs the tasks of individual developers and the team as a whole, and 4) offers criteria
       for monitoring and measuring a project’s products and activities.”1

Processing Systems managers and software developers are experienced and dedicated individuals
who have a great deal of background in developing software for census applications (e.g., they
were involved in the 1980 and 1990 decennial censuses and Dress Rehearsals, and in the 1995 and
1996 census tests). They have become accustomed to reacting to demands for developing and
adapting software to accommodate “spur-of-the-moment” requests. However, for the 2000
decennial census and its Dress Rehearsal, they are confronted with the challenges of implementing
new and complex techniques with newer, less experienced staff members and support contractors.
Despite their significant capabilities, we are concerned that they do not follow a well-defined
software development process based on software engineering principles. Software engineering is
concerned with the establishment and application of sound concepts, principles, processes (with
associated activities and development methods), metrics, and environments that include
development and evaluation tools. These, in turn, must be supported and enforced by standards,
procedures, and evaluations. Use of sound software engineering practices will help produce
software that is correct, efficient, modifiable, reliable, and verifiable.



       1
        Unified Modeling Language, UML Summary, Rational Software Corporation, Santa
Clara, CA, March 19, 1997.

                                                 3
Office of Inspector General                                              Final Inspection Report

The bureau had previously recognized the importance of defining a software engineering
approach. In March 1991, the bureau produced its Programming Standards and Guidelines
Manual, whose stated purpose was to “cover the entire range of software development when
completed.” The manual was supposed to include sections on specification writing, analysis,
program design, program coding, structured walkthroughs, documentation, and testing.
However, only standards and guidelines for program coding and code walkthroughs were
provided and, therefore, the document never fulfilled its intended purpose. Thus, software
development is not based on standards for (1) documenting and reviewing software specifications
and design, (2) ensuring the uniform and effective use of development and evaluation methods
and tools, and (3) ensuring that rigorous, independent testing is carried out. Because of the
widespread dependence on and, hence, the criticality of correct decennial census results, we
believe that the bureau needs to adopt a software development process based on at least this
minimal set of elements.

A.     No standard policy for design documentation and review exists.

Design documentation is needed to support testing, modification, and maintenance activities, and
to assess the progress of software development. Also, the availability of design documentation
can shorten the amount of time required for a newly-hired person to become a productive member
of a software development team. Conversely, the lack of such documentation is a burden on the
other experienced team members who must spend time with new hires to familiarize them with the
software design. Since the bureau plans to hire additional staff to support software development
for headquarters processing systems and because this software must be developed in a relatively
short period of time, it is important to have standards in place for documenting software design
and for peer review of the design as it evolves. Furthermore, standards for documenting and
reviewing software design are necessary to ensure that the loss of a key team member does not
jeopardize the development effort and to permit necessary modifications to be readily
incorporated after the Dress Rehearsal.

B.     No standards or policies are in effect to enforce rigorous, independent testing.

The bureau’s current approach to software development places the primary responsibility for
testing on the developers. However, the developers lack guidance or requirements for developing
test plans and procedures, and there are no provisions for independent testing. This approach
lacks both the rigor afforded by using well-defined test plans and procedures, and the additional
assurance that independent testing provides. The absence of rigorous, independent testing greatly
increases the risk of undetected errors remaining in operational software. The critical nature of
the decennial census and the magnitude of its effect dictate that confidence be established in its
supporting elements. Therefore, rigorous, independent testing must be an integral part of
software development to help ensure accuracy and protect the integrity of the census.



                                                4

Office of Inspector General                                               Final Inspection Report

The bureau needs to develop a testing approach that ensures that all software is adequately tested.
In addition, the bureau needs to identify critical software components, especially those dealing
with sampling and estimation, that are likely to be difficult to assess for accuracy and correctness
or which have not been used in previous censuses. For these components, development and
enforcement of a policy for rigorous, independent testing should be undertaken.

C.     Software development and evaluation tools are ad hoc and inconsistently used.

We found that there are no standard configuration management procedures or tools that
developers are required to use but, instead, configuration management is performed on an ad hoc
basis by individual developers. Configuration management is a discipline, usually implemented with an autom
tool, for controlling software, hardware, and documentation throughout the system life-cycle. It is crucial to
development and maintenance because it controls and tracks accesses and changes to system components, co
among developers, and provides the means for building system baselines for testing and release. For exampl
such fundamental functions as who is authorized to access a software module or update a baseline. Configuratio
management also ensures that correct versions of the software are used, and enables recovery
from intentional changes that result in adverse system behavior. Without configuration management,
system integrity is jeopardized.

The bureau needs to develop procedures and responsibilities for configuration management and select an app
automated tool to adequately manage system material. It should also place the extensive amount of software
developed for the previous decennial census and tests for the 2000 census under configuration
management to facilitate determining what software is available for the Dress Rehearsal and 2000
decennial census and enable it to determine more accurately the development effort remaining.

We also found that software development and evaluation at census are manually intensive
processes and that development and evaluation methods and tools have not been used extensively.
Software development is a human activity and, as such, is prone to the introduction of errors.
The size and complexity of the bureau’s software development effort necessitate additional
assurance that the introduction of unintended errors is minimized. Development and evaluation
methods and tools can assist developers in the avoidance of errors. Even the simplest of errors, if
undetected early in the process, becomes difficult and expensive to find and correct later.

The use of automated tools in other areas such as design, debugging, performance measurement,
testing, and complexity assessment would not only streamline the processes, but also allow for
tracking the maturity and volatility of each activity. Many tools are available that cover all
aspects of software development, many taking into account the influences of schedule drivers,
level of staff experience, languages utilized, and software complexity. The selection of specific
tools should be driven by the software development process they are intended to support. The
appropriate tool set should include functionality sufficient for fulfilling the bureau’s needs,
recognizing the short time available until the Dress Rehearsal, and should take into account staff
experience and tool interoperability. As the bureau evolves its software development process, it

                                                 5

Office of Inspector General 	                                               Final Inspection Report

should use a phased approach to introduce new procedures and tools in order to minimize
disruption to Dress Rehearsal activities while still establishing a firm foundation from which
systems can be developed in time to ensure a successful 2000 decennial census.

The bureau has responded to our concerns about its software development approach by
developing an action plan outline. The outline enumerates steps to address the deficiencies
identified by putting into place an initial set of software development procedures. Specifically,
the bureau plans to: (1) inventory all existing software and identify its applicability to the Dress
Rehearsal, 2000 decennial census, or both; (2) place the identified software under configuration
management for use as a baseline to determine the remaining software development effort; and
(3) adhere more closely to a standard development method by seeking to facilitate the timely
development of requirements specifications. Most reassuring is that the bureau has taken the
first steps to instituting a comprehensive overhaul of its software development activities by
contacting an acknowledged software engineering expert to assist in the revision of its approach
to software development and to help develop a software test program.


II.	   Estimates of Software Development Schedules and Resources Are Not Realistic for
       the Dress Rehearsal and the 2000 Census

The bureau has developed a master activity schedule (MAS), using Primavera Project Planner,
that identifies activities, their interrelationships, and expected durations necessary to accomplish
the 1998 Dress Rehearsal and the 2000 decennial census. The MAS associated with headquarters
processing includes numerous software development activities.

Based on our review of the MAS for headquarters software development activities, we noted that,
in many cases, the duration of an activity for the decennial census was at least equal to, and often
greater than, the duration of the corresponding activity for the Dress Rehearsal. This situation
caused us to question the bureau’s ability to meet its stated intention to have the software for the
Dress Rehearsal represent, as closely as possible, the software required for the decennial census.
It was upon questioning the rationale for this situation that we learned that durations did not
indicate the expected effort required, but rather represented “windows of opportunity” or the time
available for development.

Without estimates of activity durations, management cannot determine whether software
development schedules are achievable or whether requests for staffing levels to support software
development are realistic. Previously it had been stated that the durations for these activities
were determined by a team of bureau professionals who were involved in software development
for the 1990 census. The team reportedly arrived at the durations by judging the size and
complexity of the software based on similar applications that had been developed previously,
identifying the person who would likely be assigned to develop the software, and considering the
staff’s experience with the application. Estimating durations in this fashion is entirely appropriate,

                                                  6

Office of Inspector General                                               Final Inspection Report

and we encourage the bureau to make use of this approach when determining the effort required
for decennial software development. In addition to the factors above, estimates should take into
account reusability of previously developed software for the same or similar application.

Because of the importance of having a realistic schedule based on estimates for the effort required
to complete software development activities, we believe that the bureau needs to estimate (1) the
amount of software code from the 1990 census and the 1995 and 1996 census tests that can be
reused for the Dress Rehearsal and the 2000 decennial census, and (2) the effort required for
modifying existing software or completing new software.

We believe that the durations currently specified for each software development activity should be
revised to reflect accurate development estimates that include consideration of software reuse.
Ideally, the amount of time required to develop software could be estimated by using one of
several commercially available tools that provides time estimates for software development based
on parameters such as size, complexity, staff experience, amount of reusable code available, and
source language. However, time constraints on the census process probably preclude the use of
such a tool, at least for the Dress Rehearsal.

Finally, the majority of the software development activities in the MAS are characterized as a
“develop/test” effort, with no further breakdown into the sub-activities actually required to
develop and test the software. As a result, management cannot gain appropriate insight into
actual progress toward completion of the software development effort. Therefore, we believe
that the bureau needs to add milestones to software development activities in the MAS to provide
a means for management to assess progress toward completion.

In response to our concerns, the bureau plans to determine the extent to which previously
developed software can be reused for the Dress Rehearsal and the decennial census, and it
intends to adjust the durations of software development activities to reflect reuse. It also will
adjust durations for new software to better reflect anticipated size and complexity. In addition,
the bureau plans to use the MAS tool to establish more detailed milestones so that management
can more closely monitor software development activities.




                                                 7

Office of Inspector General 	                                             Final Inspection Report

III.	   Requirements for Headquarters Processing Are Immature, Volatile, and Likely to
        Be Late

As currently planned, the 2000 decennial census and the 1998 Dress Rehearsal will differ
significantly from previous censuses. Unless restricted by Congress, the bureau will use statistical
sampling to a greater extent than before and will rely on additional statistical processes that have
not been used in previous censuses. Therefore, decisions concerning the details of these statistical
processes must be documented in requirements specifications for software that still must be
developed. However, statistical research is still being conducted and important decisions
concerning the details of some of these processes are not being made in a timely manner.
Consequently, requirements specifications for the development of software to support them
cannot be prepared within the required time frame. As a result, some developers have stated that
they will begin development of software without having associated requirements specifications
available, or with specifications that are likely to change. Without timely availability of
specifications, they will rely on their current understanding of the requirements and any past
experiences with similar applications.

The development of software without requirements specifications, or with frequently changing
specifications, increases the risk that costly and time consuming modifications will subsequently
be needed to accommodate changes in requirements. We believe that the bureau should focus on
definition and refinement of requirements, rather than risk having to modify prematurely designed
and developed software. Therefore, the bureau should identify those software development
activities whose requirements specifications are currently, or are likely to be, incomplete or late,
and focus the attention of appropriate Program Steering Committee teams to identify the causes
for any delays in establishing the requirements. The bureau’s Management Integration Team
should take action to address the causes identified and ensure that required decisions concerning
requirements are expedited. Such an approach is particularly important if the bureau hopes to
have reasonably mature and adequately tested software available for the Dress Rehearsal in 1998,
and to have the capabilities of the Dress Rehearsal software closely approximate that of the 2000
decennial census.

During our inspection, the bureau acknowledged the importance of defining and stabilizing
requirements for software development activities and has agreed to facilitate the definition of
requirements and subsequent development of software requirements specifications for those
activities that currently lack requirements or for which incomplete requirements exist.




                                                 8

Office of Inspector General 	                                             Final Inspection Report

RECOMMENDATIONS
In order to minimize disruption to Dress Rehearsal activities while still establishing a firm
foundation from which systems can be developed in time to ensure a successful decennial census,
we recommend that the Chief of the Decennial Systems and Contracts Management Office
implement the following recommendations:

1.	    Enlist the aid of a recognized software engineering expert to assess the bureau’s current
       software development approach and make recommendations for its improvement to
       ensure successful development of software for the decennial census. The bureau should
       specifically request that recommendations address process definition, development
       standards, formal testing, and use of a consistent set of tools for configuration
       management and software development and evaluation.

       The bureau has agreed with this recommendation and has engaged the services of Tim
       Lister of the Atlantic Systems Guild.

2.	    Identify software activities where timely completion is at risk due to incomplete
       requirements and refer them to the appropriate Program Steering Committee and the
       Management Integration Team for resolution of issues contributing to the delay.

       The bureau has agreed with this recommendation and has commenced activities to
       accomplish the identification of at-risk activities.

3.	    Develop an inventory of existing software to identify reusable components from previous
       census activities and to provide estimates of the size of software for development efforts.

       The bureau has agreed with this recommendation and is in the process of inventorying
       existing software for use in determining remaining software development effort.

4.	    Adjust the current MAS for each software development activity to reflect an accurate level
       of effort based on the availability of reusable software and estimates of relative size and
       complexity for new software.

       The bureau has agreed with this recommendation and will make appropriate adjustments.

5.	    For each software development activity, define milestones that will allow determination of
       progress made toward completion.

       The bureau has agreed with this recommendation and will use the same tool as used for
       the MAS but as a separate linked schedule.

                                                9

Office of Inspector General 	                                           Final Inspection Report

6.	    Develop a plan for accomplishing the adjusted schedule defined above, based on
       consideration of staff skills, availability, training, and infrastructure needs.

       The bureau has agreed with this recommendation and is in the process of developing
       such a plan.

7.	    Adopt and enforce guidelines for documenting and performing peer review of software
       design and development and for rigorous, independent testing of critical software
       components.

       The bureau has agreed with this recommendation and will use Tim Lister to help
       formulate a software test program.




                                               10

